<html>
<title> - [H.A.S.C. No. 113-52] DEPARTMENT OF DEFENSE'S CHALLENGES IN ACCOUNTING FOR MISSING PERSONS FROM PAST CONFLICTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-52] 
                   DEPARTMENT OF DEFENSE'S CHALLENGES 
                   IN ACCOUNTING FOR MISSING PERSONS 
                          FROM PAST CONFLICTS

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             AUGUST 1, 2013

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  


                  U.S. GOVERNMENT PRINTING OFFICE
82-467                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                           Colin Bosse, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, August 1, 2013, Department of Defense's Challenges in 
  Accounting for Missing Persons from Past Conflicts.............     1

Appendix:

Thursday, August 1, 2013.........................................    23
                              ----------                              

                        THURSDAY, AUGUST 1, 2013
 DEPARTMENT OF DEFENSE'S CHALLENGES IN ACCOUNTING FOR MISSING PERSONS 
                          FROM PAST CONFLICTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Cole, Dr. Paul M., Oak Ridge Institute for Science and Education 
  Fellow, Central Identification Laboratory, Joint POW/MIA 
  Accounting Command (JPAC)......................................     4
Farrell, Brenda S., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     3

                                APPENDIX

Prepared Statements:

    Cole, Dr. Paul M.............................................    48
    Davis, Hon. Susan A..........................................    29
    Farrell, Brenda S............................................    30
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    ``Accessions with Possible U.S. Human Remains FY 03-FY 13,'' 
      by Dr. Paul M. Cole........................................    61

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 DEPARTMENT OF DEFENSE'S CHALLENGES IN ACCOUNTING FOR MISSING PERSONS 
                          FROM PAST CONFLICTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                          Washington, DC, Thursday, August 1, 2013.
    The subcommittee met, pursuant to call, at 8:02 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. The hearing will come to order. Everyone is 
welcome to the Subcommittee on Military Personnel on the topic 
of the Department of Defense's challenges in accounting for 
missing persons from past conflicts.
    Today the subcommittee will continue its oversight on the 
important issue of POW/MIA [Prisoner of War/Missing in Action] 
recovery. Last August, Congresswoman Madeleine Bordallo and I 
had the opportunity to visit the Joint Personnel Accounting 
Command--JPAC--headquarters, as well as a field recovery team 
on the side of a mountain in Vietnam.
    I was extremely impressed with the professionalism and work 
ethic of our service men and women as they worked in extreme 
heat and dangerous conditions to recover the remains of missing 
persons from a jet crash site. There were many dedicated 
military personnel involved in this effort.
    The joint U.S.-Vietnamese team was inspiring for its 
determination of recovery of remains. They shared the desire 
for the fullest possible accounting with the many family 
members of those who are still missing.
    We, as a nation, owe the proper emphasis, resources, and 
priority of effort to account for our missing persons from past 
conflicts and to bring closure to their family members. That is 
why this subcommittee, then chaired by Representative Susan 
Davis, in the National Defense Authorization Act for fiscal 
year 2010 required the Secretary of Defense to increase 
significantly the Department's capability and capacity to 
account for missing persons, with the objective that the POW/
MIA accounting community could identify at least 200 missing 
persons annually, beginning in fiscal year 2015.
    In May 2012, after 3 years of little apparent progress by 
the Department of Defense toward achieving the 2010 mandate, 
this committee directed a Government Accountability Office 
review. There have been approximately nine studies over the 
past decade on ways to provide and improve the accounting 
community's effort to include a recent internal review of 
JPAC's procedures conducted by Dr. Paul Cole, who is employed 
as a fellow at JPAC.
    Our goal today is to better understand the ability of the 
POW/MIA accounting community to meet the requirements of the 
National Defense Authorization Act for fiscal year 2010 and to 
help the Department build the capability and capacity to 
identify 200 missing persons per year by fiscal year 2015.
    I would like to welcome the distinguished witnesses, Ms. 
Brenda S. Farrell, Director of Defense Capabilities and 
Management, U.S. Government Accountability Office; and also Dr. 
Paul M. Cole, Ph.D., Oak Ridge Institute for Science and 
Education Fellow with the Joint Personnel Accounting Command, 
Central Identification Laboratory, U.S. Pacific Command.
    Mrs. Davis, do you have any opening remarks?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Yes, thank you, Mr. Chairman. I certainly want 
to welcome also Dr. Cole and Ms. Farrell. We appreciate your 
being here with us today.
    As we know, this hearing is the first of several that the 
subcommittee is planning on the effectiveness and the 
efficiency of the POW/MIA accounting community.
    Mr. Chairman, I hope that the next hearing we hold will 
include the appropriate representatives from the Department of 
Defense. Ultimately, it is the Secretary of Defense's 
responsibility for ensuring that the Department meets the legal 
requirements to achieve at least 200 identifications a year 
beginning in 2015.
    And therefore it is only appropriate that we have the 
representatives from the Department of Defense before the 
subcommittee to understand what actions, if any, the Department 
is undertaking to truly address the concerns that have been 
raised in the Cole report and in the recent GAO [Government 
Accountability Office] report that we will be hearing about 
today.
    The culture of service instills within each service member 
that no one should be left behind on the field of battle. And 
we have a moral responsibility to those who are missing and 
remain unaccounted for to be returned home to their families 
and their loved ones. As the GAO report makes clear, weak 
leadership, fragmented organizational structure, and the lack 
of clearly articulated roles and responsibilities have hampered 
the effectiveness of this community for years. Given the 
current budget situation, we can no longer afford to let these 
concerns slide.
    So it is time we focus our attention on how to make the 
POW/MIA accounting community more effective and efficient to be 
able to meet the goal of identifying at least these 200 sets of 
remains a year by 2015.
    So I look forward to hearing from our witnesses and having 
an open and productive dialogue on the issues and challenges 
that our two witnesses have identified within the POW/MIA 
accounting community.
    And again, I want to thank you all for being here. Thank 
you.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you, Mrs. Davis.
    I now ask unanimous consent that Representatives Richard 
Nugent, Colleen Hanabusa, and Congresswoman Jackie Speier be 
allowed to ask questions during the hearing. Without objection, 
so ordered.
    Ms. Farrell, we will begin with your testimony. As a 
reminder, please keep your statements to 5 minutes. We have 
your written statement as well as Dr. Cole's for the record.

STATEMENT OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farrell. Thank you, Mr. Chairman.
    Chairman Wilson, Ranking Member Davis, and members of the 
subcommittee, thank you for the opportunity to appear today to 
discuss GAO's recently issued report on the Department of 
Defense's missing persons accounting mission. As you know, we 
conducted our review of DOD's [Department of Defense] efforts 
to increase its capability and capacity to account for missing 
persons in response to a mandate driven by this subcommittee.
    For the past decade, DOD has accounted for an average of 72 
persons each year. Congress mandated DOD to increase its 
capability and capacity such that it could account for at least 
200 missing persons annually by 2015. We were mandated to 
review DOD's efforts to reach that goal of 200.
    My main message today is in the title of our report, ``Top-
Level Leadership Attention Needed to Resolve Long-Standing 
Challenges in Accounting for Missing Persons from Past 
Conflicts.'' While more than a dozen DOD organizations, known 
collectively as the accounting community, have a role in 
accounting for the missing, the Under Secretary for Policy and 
the U.S. Pacific Command are the two top-level leadership 
organizations.
    My written statement is divided into three parts. First, we 
reported the need for DOD to examine options to reorganize the 
accounting community. Top-level leadership has been unable to 
resolve disputes between accounting community members in areas 
such as roles and responsibilities and developing a 
communitywide plan, as outline in our report. Further, the 
community is fragmented in that the community members belong to 
diverse parent organizations under several different chains of 
command. No single entity has overarching responsibility for 
communitywide personnel and other resources.
    A majority of the community members we surveyed conveyed a 
lack of confidence about the organizational structure. Not a 
single organization ranked the current structure as the most 
effective organizational option.
    Moreover, illustrating a disconnect between leadership's 
perspective and the rest of the community, only two 
organizations, the two top-level leadership organizations I 
have noted--the Under Secretary for Policy and PACOM [U.S. 
Pacific Command]--responded that the current structure greatly 
enabled the appropriate senior leadership involvement.
    The second part of my statement addresses the need for 
DOD's guidance to clearly articulate roles and responsibilities 
for all accounting community organizations. Disagreement over 
roles and responsibilities, where DOD's guidance is broad or 
vague enough to support different interpretations, have led to 
discord, lack of collaboration and friction among the community 
members, and particularly between DPMO [Defense Prisoner of 
War/Missing Personnel Office] that reports to the Under 
Secretary for Policy and JPAC, a subordinate command of PACOM.
    For example, JPAC views itself as having the lead on 
operational activities, such as conducting investigations and 
recovery missions. And JPAC officials express concerns with 
DPMO's plans to conduct some operational activities.
    We found overlap and duplication efforts have led to 
inconsistent practices in key areas, such as equipment and 
artifact identification and analysis and research and analysis.
    The last part of my statement addresses the need for DOD to 
finalize the communitywide plan to develop increased capability 
and capacity as required by statute. Communitywide planning has 
been impeded by disputes and by a lack of coordination among 
members of the missing persons accounting community.
    DPMO and JPAC developed two competing proposed plans, 
neither of which encompass the entire accounting community. 
Both plans call for an increased capability and capacity and 
for a new satellite remains identification laboratory in the 
continental United States.
    However, the two plans differed as to which organization 
would have control over much of the increased capability and 
capacity. And each plan favored the organization that authored 
it.
    The other members and their resource needs were not 
mentioned in either proposed plan. We made recommendations in 
each of these three areas to DOD along with six other 
recommendations. And DOD generally concurred with all of our 
findings and recommendations.
    Let me conclude by noting that prompt action on the part of 
DOD to address these recommendations is critical because the 
2015 timeframe is rapidly approaching and, importantly, 
families have been waiting for decades to discover the fate of 
their loved ones.
    Chairman Wilson, this concludes my remarks. I will be 
pleased to take questions when you wish.
    [The prepared statement of Ms. Farrell can be found in the 
Appendix on page 30.]
    Mr. Wilson. Thank you very much, Ms. Farrell.
    We proceed to Dr. Cole.

STATEMENT OF DR. PAUL M. COLE, OAK RIDGE INSTITUTE FOR SCIENCE 
AND EDUCATION FELLOW, CENTRAL IDENTIFICATION LABORATORY, JOINT 
               POW/MIA ACCOUNTING COMMAND (JPAC)

    Dr. Cole. Congressman, thank you for the opportunity to be 
here today and your colleagues. I will just submit my prepared 
statement for the record and just have a couple of opening 
statements to make.
    The first one is, again, to thank you for the opportunity 
to be here. I need to state a couple of things for the record. 
I am not an employee of the Department of Defense. I am a 
participant in the ORISE [Oak Ridge Institute for Science and 
Education] scholarship and fellowship program. So I don't 
represent the Department of Defense, JPAC, the Central 
Identification Lab, or anybody else for that matter, except for 
me. So I am not a DOD employee.
    I would like to just briefly summarize what I did and what 
I was asked to do. I came to JPAC from a management consulting 
background. And I was asked to look at, not the science of the 
identification process, but the business side of it, how is it 
done, and to look at the process to identify where there could 
be some improvements, efficiencies, that sort of thing.
    So I want to emphasize when I talk about what I do and what 
I found. I have profound respect for the missing. My father is 
a World War II and Korea War veteran. And every time I look at 
a photograph of the missing people we are working with from 
World War II, I always think it could have been him. So it is a 
very personal thing. And I have worked with families of the 
missing over the years since I first got involved with this 
issue in the early 1990s. So if it sounds like I am just being 
dispassionate, I hope that doesn't give the wrong impression 
that I don't have respect for the issue we are working with.
    But what I did was broke the identification process up into 
four parts. Think of it this way. You have procurement. Well, 
let me start over. What is the end product? The end product is 
an identification. It is in the form of a written product, if 
you have never seen one. It is in a binder. It is in a, you 
know, black cover and so forth. That is what JPAC does. It 
produces identifications.
    Now, how do they get the information for that 
identification? It starts on this end with a procurement of 
remains. You have to find them. Then, that is the procurement 
step, then they must come into the laboratory. That is the 
inbound logistics part. Now, that is the recovery teams that 
Congressman Wilson referred to who are out digging in the 
jungles and so forth.
    Then there are laboratory operations that occur within the 
CIL [Central Identification Laboratory] that produce the 
identification. So there are four parts. So when I talk about 
procurement, that means finding the remains. Inbound logistics, 
that is the recovery operations. Lab operations is the actual 
identification process--where the scientific director, who is 
the only one in the Department of Defense who has the authority 
to sign off on an identification finally says, ``These remains 
are this person,'' and then the identification report itself.
    So what binds this all together--I have it here. I wrote an 
SOP for that, a standard operating procedure, to bind all those 
pieces together into one coherent production process. Along the 
way, I identified--I don't want to use that word. The result 
revealed some problems in the identification process; those I 
addressed in the SOP.
    So the ones that you saw in the information value chain 
report, that is actually a problem statement. The SOP that I 
have here is supposed to be the solution statement. And that is 
what I was asked to do. I stand by the report that I did.
    And that concludes my comments and look forward to having a 
discussion with you. Thank you.
    [The prepared statement of Dr. Cole can be found in the 
Appendix on page 48.]
    Mr. Wilson. Thank you very much, Dr. Cole. And I want to 
thank you and Ms. Farrell for your thoroughness, your obvious 
appreciation of how significant this issue is, and we are just 
very grateful that you have provided this information.
    Ms. Farrell, the GAO report provides DOD nine 
recommendations for executive action in order to improve the 
accounting community's efforts and efficiencies. If DOD 
implements the recommendations, will the department be able to 
build the capacity and capability to meet the fiscal year 2010 
mandate of identifying at least 200 persons a year?
    Ms. Farrell. Our report does make nine recommendations. At 
the top of the list is the recommendation for DOD to examine 
its organizational structure to determine if it is the right 
structure to help it increase its capability and capacity by 
2015. We think that this is an examination that needs to be 
made quickly. And, from that, it should flow the roles and 
responsibilities of who is going to do what and by when.
    Right now, the DOD does not have a plan of how they are 
going to increase their capability and capacity to reach that 
200. So the first thing they need to do is have a road map of 
how they are going to get there. They may have to make 
adjustments. They may find that the feasibility of 200 is not 
realistic. Or they may find that they can do more than the 200. 
But right now, they do not have that roadmap.
    Mr. Wilson. And I really appreciate your clarity in regard 
to organizational structure. And I am confident this committee 
will be looking into that.
    And, Dr. Cole, I appreciate your candidness, the report 
that you did. And you originally, to do a snapshot of JPAC 
operations to help provide for its standard operating 
procedure, SOP. Has the SOP been completed? Is it being 
utilized? What recommendations, indeed, could be provided? And 
I appreciate you giving a step-by-step analysis, too.
    Dr. Cole. Certainly, thank you. Yes, I completed my 
assignment and submitted the SOP to the command. After that, I 
had nothing to do with it. It was amended quite a bit. So the 
SOP was signed, and it is in effect. It is on the portal of the 
JPAC. You can look at it. But it varies significantly from the 
one that I have submitted.
    One of the things that was very important in the 
information value chain study was the identification of areas 
where there were no accountability measures. The Department of 
Defense requires every element of the Department of Defense to 
have a reportable metric, a quantifiable metric to report, 
right? So I put those into the SOP where they were missing.
    Unfortunately, quite a few of those were taken out in the 
final version. So, yes, short answer to your question is yes. 
But the version that you see on the portal is, sort of, rather 
alien to me.
    Mr. Wilson. And with the metrics that you identified being 
taken out, which metrics were they?
    Dr. Cole. It was primarily in the procurement side. And 
that is the investigative team missions. There was just nothing 
there. When you would ask--I did my methodology for this was to 
do written surveys and follow up with face-to-face interviews 
and so forth. But, more importantly, I looked at the products 
of each of the sections at JPAC.
    Just to give you a contrast, with regard to the laboratory, 
I was given a free hand. I looked at hundreds of the 
identification packets, right? With respect to the J2 [now 
known as Research and Analysis (R&A)], which is responsible for 
the investigative team missions, they denied me access to 
almost everything. And I was lucky to have a look at about 20 
of their field reports.
    So, from that, I was able to see that at the end of the 
field report--you know, I have been a government consultant in 
addition to other things. You generally have to say what you 
did for the money. That part was missing. There was no so what 
section to any of these. And there were certainly no 
quantifiable metrics in those reports. So in the SOP, I hate to 
say made up--but I constructed an accountability ladder that 
would allow these metrics to be collected, quantified, and 
reported. And that is what was missing, and the one that you 
can see on the Web site.
    Mr. Wilson. And, again, you are continuing being candid. 
And we all appreciate that, because we all, who are here, have 
such a profound interest that this program be successful.
    And, concluding my questions, Ms. Farrell, the nine 
recommendations--and I think I already know your answer. It is 
called organizational structure. Which of the GAO 
recommendations do you feel is most important to achieve the 
goals of identification of remains?
    Ms. Farrell. Yes, Mr. Chair, I think all the 
recommendations are important to help increase the capability 
capacity. But I think we would put deciding if the status quo 
is the correct structure in place to help increase that 
capability and capacity or if there should be a more 
centralized chain of command. And once that is decided, then 
the next step would be whether you stay with the status quo or 
decide to make a change in the structure to more clearly define 
the roles and responsibilities.
    Mr. Wilson. And I sincerely appreciate your efforts 
promoting accountability.
    And we now proceed to Congresswoman Susan Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Mr. Chairman, I wanted to follow up with your question, 
actually, to Mr. Cole. And maybe this is just--so what is going 
on?
    Dr. Cole. Well----
    Mrs. Davis. Could you talk a little bit about procurement, 
particularly? And is there a problem with training? Are there 
other responsibilities that get in the way? What do you think 
is going on?
    Dr. Cole. Well, first I have to give full disclosure. I am 
not a forensic scientist, right? I am an economist. I am a 
failed scientist. I am an economist and management consultant. 
So I looked at this from a business perspective. So if you want 
to know anything about the, you know, forensic anthropology and 
the archaeology and things like that, unfortunately, I can't 
answer that.
    But I can tell you about the organization of it. The search 
for human remains is actually a very complicated----
    Mrs. Davis. Mm-hmm.
    Dr. Cole [continuing]. Issue, right? But there is a--I 
can't remember the fellow's name now, but there is a famous 
forensic anthropologist from Ohio State University who wrote 
the ten commandments of forensic anthropology. The first one is 
that human remains are always found by accident. It is very 
difficult to have a systematic way to search and get results 
for this. But it can be done.
    So the first thing I would point out that--and it is in my 
report. I think there was an absence of a meaningful 
methodology in the procurement process. And it lacked, as I 
mentioned, accountability. But there was also a lack of 
structure in that an analyst should never be allowed to invent 
the world that they analyze. You know, that you end up in a 
logic loop that way. And there is also no accountability if you 
invent your own problem.
    So I suggested in this SOP, for example, that every year 
the commander of JPAC should establish something that I call 
the Command-Authorized Research Program. Unfortunately, the 
acronym was CARP. I couldn't come up with a better one.
    But that would say that we are going to look at Papua, New 
Guinea this year. Or we are going to look for big bombers in 
Europe. But it gives a teleological, an end-oriented structure 
for the process.
    That was missing entirely. So what happened, well it is 
still going on, actually, is that the researchers sort of come 
into the office and say, ``Well, this is what we are going to 
do today. This is what we are going to look for.'' So they 
lacked a--in fact, if you read the methodology that is in--I 
reprinted the entire thing, I can't think of a more salient 
example of opaque sophistry than that methodology that was 
presented by the J2.
    So it needed instruction from the top. ``Go do this.'' And 
that was missing.
    And also the methodology, because any observation is 
pointless if it is not against a standard. So for every section 
in JPAC, I looked for best international practice and held each 
section accountable to best international practice in their 
particular field.
    And we are not the only country that does this mission. It 
may be unique for the Department of Defense, but there are 
other countries that do it and they do it very well, and we can 
learn from them. So I used that as a standard and saw that 
there was a tremendous disconnect between the procurement 
program at JPAC and the best international practice being used 
by other countries.
    So let me stop there and see if that is answering your 
question.
    Mrs. Davis. And what about the community as a whole and 
their interaction with this? What did you find--I guess maybe I 
will just go to Ms. Farrell because you had----
    Dr. Cole. That exceeded my mandate.
    Mrs. Davis. Yes.
    Ms. Farrell. Yes, our mandate did focus on the total 
community and JPAC is obviously a key player. JPAC, as you 
know, reports to PACOM, also the Central Identification Lab is 
the laboratory for JPAC. But that is just one player, as I 
noted in my opening.
    The other major coordinating authority is the Under 
Secretary for Policy that has the Deputy Assistant Secretary 
who oversees work related to developing policy, coordinating 
policy and overseeing the missing accounting programs 
community.
    There are other players such as the Life Sciences Equipment 
Laboratory that reports to the Air Force Materiel Command. That 
is another chain of command we have got. Now we are up to three 
chains of command.
    The Armed Forces DNA Identification Laboratory falls 
underneath the Army Surgeon General. So we have got, again, 
another chain of command.
    This is where you need the two major coordinating bodies, 
being PACOM and the Under Secretary's office, to step in at 
times when there have been disputes about which plan to proceed 
or what are the overlapping roles and----
    Mrs. Davis. And how do you see that process, then? How do 
they establish those priorities? Because obviously there are a 
lot of different ways to approach. And this has been going on, 
of course, for a long, long time.
    Ms. Farrell. Yes, it has. DPMO was established in 1993. And 
what our report is saying, the top leadership coordinating 
bodies are not stepping in to resolve those disputes, and it is 
not clear where this particular mission falls in terms of 
priorities.
    Again, there is no communitywide plan that would help lay 
out goals, metrics, such as what Dr. Cole is referring to. We 
too believe that metrics can help guide an agency to reach 
their goal, and if they need to make adjustments, then they can 
use that plan to do so.
    But right now, it is not clear where this particular 
accounting mission does fall in terms of priorities with the 
Department.
    Mrs. Davis. Thank you.
    Mr. Wilson. Thank you, Mrs. Davis.
    And we will now proceed with questions from the members who 
are here. And I appreciate everyone being here. We will be on a 
very strict 5-minute rule. And it will be administered by Craig 
Greene, so we know it will be done properly.
    And we begin with Dr. Joe Heck of Nevada.
    Dr. Heck. Thank you, Mr. Chairman. Thank you both for being 
here.
    Dr. Cole, I wonder if you could help me try to understand 
to the best of your ability some of what appears to be 
personality clashes in the process in which you were engaged. 
Because looking at Colonel Thoma's memo of 30 January 2012, he 
said some ``contentious material and personalization'' within 
the report.
    And Major General Tom's memo of I guess it was February 3rd 
of 2012 seems rather harsh in its assessment of the process in 
your report.
    What was it that was in the report or your interactions, if 
any, with these two officers that caused them to have such, I 
guess, such angst over the report that you generated?
    Dr. Cole. The short answer, Congressman, is that I wish I 
knew. I had very cordial relations with both the commander of 
JPAC, General Tom, and Colonel Thoma. There was never any 
personality conflict or anything like that, from my 
perspective.
    But then again, when you are in the management consulting 
business, you kind of grow thick rhino hide, so I am kind of 
used to that.
    But let's go back to what the purpose of this was. The 
purpose of this report was to be a management document for the 
top management. There were supposed to be maybe two or three 
people who would see this.
    And as far as the comments that there is personalization in 
the information value chain report, bear in mind, I did this 
from interviews and surveys. There is very little of my own 
judgment in this. And if it does sneak in, it should have been 
taken out. There wasn't an editing process, for example. There 
wasn't a verification process. There wasn't a review process.
    What you have seen is basically a data dump from me, which 
I am not going to take it back. I wish I had written the draft 
a little bit better. But the personalizations in there came 
from interviews. It was what the colleagues at JPAC were saying 
about the product produced by somebody else.
    For example, if I say, ``Congressman, you produce a widget 
for me,'' and I think this widget is broken, I never use it, 
that is what you see in that matrix at the end of the report. 
So that was supposed to then be used by the JPAC command to say 
we have a dispute between two recipients of a product and the 
producer of a product. Resolve that. Get rid of the waste and 
the misunderstanding.
    So I could see that that could be a bit contentious, but as 
far as the speculation about why people kind of took offense to 
the report, I could only speculate.
    Dr. Heck. Who did you report to during the process?
    Dr. Cole. It was the--as you see in my opening statement, I 
refer to two Deputy Commanding Officers. One was the 
Commissioning DCO, and that was Colonel John Sullivan. And the 
second was Colonel Thoma, who came in late in the game. He was 
there about 3 months toward the end.
    So it was Colonel Sullivan. And I spent well over--we kept 
track of it. It was nearly 40 hours of consultation just with 
him on this report.
    Dr. Heck. And during the time that you were doing the 
research and generating the report, were there interim updates?
    Dr. Cole. Absolutely.
    Dr. Heck. And at any time during your providing those 
interim updates did there seem to be any concerns or backlash 
from any of those----
    Dr. Cole. I never got any feedback.
    Dr. Heck. Thank you, Mr. Chair. No further questions.
    Mr. Wilson. Thank you very much, Dr. Heck.
    We now proceed to Congresswoman Madeleine Bordallo of Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you for calling this hearing on such an important topic. The 
recovery of remains of our POWs or MIAs is important to our 
military community, as well as to their families.
    And I want to thank you. I found that the trip that I took 
with Chairman Joe Wilson to the lab with remains in Honolulu, 
and our trip to the jungles in Vietnam, where incidentally we 
personally climbed down hills with the crew. And I was just 
very--it was an eye-opener for me. I didn't know that there was 
such a vast team working on this.
    We were at a site where two American pilots had crashed 
into a mountain and they were excavating and finding out what 
they could. And there were the pictures of the two pilots. We 
went to the site.
    I did ask one of them, I said, ``Are families interested in 
this?'' And the lead of the team there said, ``In some cases, 
yes. They even come to the site to see how we are doing. 
Others, I guess it has been so many years, that it is even hard 
to find relatives.''
    But all in all, I was very, very impressed with this trip 
and with the amount of time and money that we put into this. 
And I want to thank the Chairman for inviting me on that trip. 
It was an eye-opener for me.
    I understand there have been many challenges in this 
endeavor. However, I know Major General McKeague and have full 
faith in his capabilities to resolve the failures in the JPAC 
office. He is a proven leader and I look forward seeing the 
positive impacts of the reforms that he will need to make.
    I have a question for both of you. I appreciate the data 
provided in the report and the recommendations to help the POW/
MIA accounting community to improve operations. But I am 
curious to know if, through your interactions and awareness of 
the operations today, is the community engaged and postured to 
increase the accountability? And what steps has JPAC office 
taken or will take to improve the operations?
    I guess we will begin with you, Miss----
    Ms. Farrell. Yes, thank you.
    Again, in order for DOD to meet this mission, it is going 
to take the collaboration of the entire accounting community. 
If JPAC alone were to develop or update its current operational 
plan and how it plans to proceed to address the goal of 200 and 
it does not take into account what the other key players have 
to do in order to finish the mission, they will not be able to 
say in 2015, ``Yes, we have met that goal.''
    It is very important that all of the community be included 
in the planning, have goals, understand their roles and 
responsibilities, how they are going to leverage off of each 
other in order to attain that goal. And right now they are not 
positioned to do so.
    Ms. Bordallo. I see. So you don't have too much faith in 
this. Is that what I am hearing?
    Ms. Farrell. At this point there is not a plan for the 
community to reach that goal.
    Ms. Bordallo. And Mr. Cole?
    Dr. Cole. I politely disagree with that assessment. The 
answer to every great question is ``it depends.'' And it 
depends on what kind of identifications you want to produce for 
200.
    If you want to produce 200 identifications solely from 
field operations, and that is a procurement process of bringing 
new remains into the laboratory, the flow of remains right now, 
you see in my statement, it is way too low.
    The field operations have failed. That is--in fact, it is 
important to emphasize that is what is dysfunctional at JPAC. I 
never said that the entire command was dysfunctional.
    Now, if you want to make 200 identifications from 
disinterments, you could do that. We are making 30 to 50 a year 
right now from the disinterments from the Punch Bowl of Korean 
war unknowns, well, Congress changed the name of all this to 
missing persons in 2009.
    But there is a lot of what I call DOD interference--maybe 
that is too strong of a word--in the scientific approach to the 
disinterments from the National Memorial Cemetery of the 
Pacific. If they had a free hand in the World War II 
exhumations, for example, if the Department of Navy would stop 
blocking the exhumation of the Arizona, for example, or the 
Inora Maru, there would--the flow of human remains into the 
laboratory would be in the hundreds.
    And it is very low cost. In fact, it is revenue neutral for 
the lab because it is reimbursed from an open Army allotment. 
Right?
    So it is not from a field. You could do it.
    Ms. Bordallo. Mr. Cole, my time is up here, but I just 
wonder, what are the recovery numbers now?
    Dr. Cole. Sorry, I have those, but may I respond later with 
that?
    [The information referred to can be found in the Appendix 
on page 61.]
    Ms. Bordallo. Clearly. Yes.
    Dr. Cole. Absolutely.
    Ms. Bordallo. I just----
    Dr. Cole. The accessions numbers are on the--I think the 
last page of my prepared statement.
    Ms. Bordallo. Very good. All right.
    Well, thank you very much.
    And thank you, Mr. Chairman.
    Mr. Wilson. And thank you Congresswoman Bordallo.
    We now will proceed with Congressman Austin Scott of 
Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    I have questions for both of you, so I am going to try to 
move fairly quick.
    Dr. Cole, I listened to your testimony and you talked about 
the quantifiable metrics. I mean, the question is, quite 
honestly, or I think your statement is, without those metrics, 
how do you hit the goal that you have? And maybe the DOD 
doesn't or won't accept the metrics.
    But more importantly, you talk about other countries that 
are doing this and that other countries have a better model.
    Which country do you believe has the best model and the 
best practices that we could mirror with minor modifications in 
the United States to help improve this process?
    Dr. Cole. Once again--that is an excellent question, by the 
way. I wanted to make a distinction between the procurement 
process and the laboratory operations.
    The laboratory operations, the JPAC still are--that is the 
international standard. That is the gold standard. Others 
aspire to be like the JPAC CIL. So they write the regs 
[regulations] ; they write the ICRC [International Committee of 
the Red Cross] regs, that sort of thing.
    The procurement side, on the other hand, the two 
outstanding examples are, first, Argentina, where they recover 
victims from the Dirty War. That is an incredibly politically 
charged environment they work in. They have a very small 
budget. And so they have to produce results, because if they go 
out and make a--it is always a big media show. If they dig in 
them wrong place and find nothing, then the opposition says, 
``See, these people don't know what they are doing.''
    The other one that is incredibly impressive is the 
activities in Bosnia to recover and identify the remains from 
the war there.
    I was in Sarajevo a year ago to take a look at how that 
operation--because the attempts by the Serbians to disguise the 
massacres and to move remains from various open graves and that 
sort of thing, and to be able to sort that out, they are 
extremely well-organized.
    So their procurement process in Argentina and in Bosnia, we 
could learn a lot from them.
    Mr. Scott. Okay. Thank you for that question.
    Ms. Farrell, if you were in control, what would the idea of 
structuring the chain of command look like?
    Ms. Farrell. It would be more centralized. GAO is not 
presenting here is the organizational structure that DOD should 
go to. We are noting that with these multiple chains of 
commands, the focus has been on disputes, rather than unity of 
command. The focus has not been on what are the requirements 
and what are the resources needed for those requirements.
    We present five possible options for the organizational 
structure in our report that we surveyed members of the 
accounting community, and those are possibilities. There could 
be another structure. But the ones that we present have a more 
centralized chain of command.
    Mr. Scott. Do you have a preference in those five 
recommendations?
    Ms. Farrell. No, we do not.
    Mr. Scott. But do you?
    Ms. Farrell. No, I do not. There is never one right way. 
There can be multiple ways to go.
    But, I mean, we looked at possible mergers. We looked at 
whether the Under Secretary for Personnel and Readiness should 
perhaps be in charge instead of the Under Secretary of Policy.
    There are advantages and disadvantages with each of these 
options. But this is a choice that DOD has to make.
    Mr. Scott. The bottom line is it is important to put the 
right person in charge--and that we have a centralized chain of 
command for it, I gather, from what you have said.
    Mr. Chairman, out of respect for time and other members, I 
will yield the remainder of my time.
    Mr. Wilson. Thank you very much, Congressman Scott. We now 
proceed to Congresswoman Niki Tsongas of Massachusetts.
    Ms. Tsongas. Well, I appreciate very much your testimony 
today and sort of highlighting the many challenges, if not 
dysfunctions, that are currently in place.
    It is not an easy thing to shed light on something--to shed 
that kind of dysfunction on an area that is so important not 
only to our families, but as I recently learned, to those who 
have served with some of those who were lost.
    I represent Concord, Massachusetts, and earlier this week 
one of my constituents, retired Navy Captain Thomas Hudner, 
returned from a sadly unsuccessful trip to North Korea aimed at 
locating the remains of his wingman, Ensign Jesse Brown, who 
was the U.S. Navy's first African-American aviator.
    Ensign Brown was tragically shot down over the Chosin 
Reservoir battleground in 1950. Captain Hudner valiantly crash-
landed his own plane in a bold attempt to rescue his friend, 
when it was clear that he would not be able to free himself 
from the wreckage of his plane.
    And unfortunately, it proved impossible. And so, at the age 
of 88, Mr. Hudner returned to North Korea to uncover the 
location of his friend, but was thwarted by a flooding from 
recent monsoons.
    So we see--we know how important it is to the families of 
those who have lost loved ones, but clearly also to those who 
have served with them as well. So I appreciate all the effort 
you are bringing to sort of making this process more functional 
and more successful.
    Mr. Cole, you have mentioned the fact that our roles on the 
production side are not always consistent with international 
standards. And in response to Mr. Scott, you highlight 
Argentina and Bosnia.
    What do they do that we could do? I mean, what is the 
difference?
    Dr. Cole. Pretty simply, Congresswoman, they use 
scientists.
    Ms. Tsongas. Scientists to?
    Dr. Cole. When they go into a field to look for remains, 
they have a strategy to look for them, and they use 
archaeologists and anthropologists.
    Until recently, the JPAC model for procurement was to use 
historians. Now, according to the Daubert standard, a historian 
is not a scientist. This has been adjudicated you know in the 
courts in this country.
    So the difference is, if you look at how--when Australia, 
when looking for the ANZUS [Australia, New Zealand, United 
States Security Treaty] missing from World War I, the team 
consisted of battlefield archaeologists. When the Argentines go 
looking for the victims of the Dirty War they use--I have met 
the guys who do it--archaeologists and anthropologists.
    For years, the JPAC procurement method has been to send 
historians into the field to look for human remains.
    Ms. Tsongas. And do you know why we don't adhere to the 
international standards and use archaeologists, rather than 
historians?
    Dr. Cole. I can only tell you it was partly because there 
was no SOP; there was no direction to say do it a different 
way. And that department was left to itself. They were assigned 
authority by the JPAC commander in 2005 to take complete 
control of the procurement program. They ran it themselves.
    Ms. Tsongas. So to change that SOP, the standard operating 
procedure, where would that have to come from?
    Dr. Cole. You do it like that. There is a, well I wrote a 
procedure into the standing operating procedure to amend the 
SOP. It can be done on a semiannual annual basis. It is a very 
simple thing.
    Ms. Tsongas. And do you think the goal of locating 200 
remains annually is doable, were we to shift to that kind of 
process?
    Dr. Cole. Yes. I will tell you why. Because I once said to 
the commissioning DCO, I said, ``I am willing to be in charge 
of that department and you hold me accountable to it. I can do 
this.''
    So my personal reputation, yes. And the skill, the 
tremendous skill that you find at JPAC is, if it is channeled 
in the right direction, these are really good people. What has 
been missing is this management and leadership which has been 
pointed out by the GAO. Instead of saying, come in to the 
office and figure out what you want to do today, I say to you, 
``Congresswoman Tsongas, go to PNG [Papua New Guinea] and look 
for bombers,'' you know, that sort of thing.
    Ms. Tsongas. Thank you, Mr. Cole.
    Dr. Cole. Thank you.
    Ms. Tsongas. And thank you for your analysis.
    Mr. Wilson. Thank you very much, Ms. Tsongas.
    We will now proceed to Congresswoman Kristi Noem of South 
Dakota.
    Mrs. Noem. Thank you.
    I thank both of you for being here.
    Dr. Cole, Austin Scott and Representative Tsongas have both 
brought up a topic that I was concerned about and thinking 
about as well, is these other countries.
    Can you tell me what their procurement numbers are per year 
that they are outperforming the United States by in Argentina 
and Bosnia? What kind of results are they gathering compared to 
what we are gathering?
    Dr. Cole. Well, unfortunately, that is not the correct--we 
are not comparing----
    Mrs. Noem. I understand we have different budgets, 
different numbers of people----
    Dr. Cole. Yes. In Argentina, you are looking for hundreds, 
maybe thousands. In Bosnia, it is probably, you know, tens of 
thousands.
    In the United States, listen, this is part of the problem 
is that the list in the United States includes everyone who was 
classified by the War Department and after Korea as non-
recoverable--not unrecovered, they were casualty status 6, non-
recoverable.
    So we have all of the losses at sea and so forth are still 
on the U.S. list.
    The lists for Bosnia and Argentina are very refined.
    Mrs. Noem. So you are saying potentially procurement that 
we have in front of us could be more difficult compared to what 
they are facing?
    Dr. Cole. No. Ours could be much, much more----
    Mrs. Noem. Much easier?
    Dr. Cole [continuing]. Much more focused, if we would 
prioritize the search list, just like they have done in those 
countries. Because one of the key differences in all of this is 
we have a lot more money than they do.
    So we can afford to do things that they can't.
    Mrs. Noem. Could you tell me a little bit about your 
report, when it was amended, who it was that actually amended 
that report?
    Dr. Cole. You mean the SOP?
    Mrs. Noem. Yes.
    Dr. Cole. Just to be clear, no one amended----
    Mrs. Noem. You said it appeared foreign to you, the one 
that is----
    Dr. Cole. That is the SOP. The SOP.
    Mrs. Noem. Yes.
    Dr. Cole. I don't know who did it.
    Mrs. Noem. So you turned it over to whom specifically?
    Dr. Cole. It was a deliverable to the commissioning deputy 
commanding officer.
    Mrs. Noem. Okay. And then from there, you had no indication 
of what you knew they were going to be doing with it. Your job 
was done. You turned it over to----
    Dr. Cole. Well, I was hoping that I would be involved and 
at least see what the revisions were.
    Mrs. Noem. Okay.
    Dr. Cole. I sort of talked to the guy who edited the thing, 
but that was it.
    Mrs. Noem. And then once it was edited, you are saying it 
is posted online, as well. But it is in its amended form, not 
in the original form.
    Dr. Cole. Well, that is their prerogative. You know, as a 
management consultant, my job is not to tell someone how to run 
their business--to say, ``If you want to run it like this, this 
is what it looks like. If you want to run it like that, it 
looks like that.'' So this was my attempt to say, ``If you want 
to run this business according to best international standard, 
do this.''
    Mrs. Noem. Do you believe that they are implementing the 
SOP?
    Dr. Cole. No.
    Mrs. Noem. As amended?
    Dr. Cole. No.
    Mrs. Noem. So why take the trouble to even go forward and 
amend it as they have if they are not planning on following it?
    Dr. Cole. You are asking the wrong guy.
    Mrs. Noem. Okay. Thank you.
    Ms. Farrell, I have a question for you. You talked about 
changing the chain of command and making it much more 
centralized. Do you believe the DOD has the authority to do 
that within itself to centralize that chain of command if they 
believe that would make them much more accountable and much 
more effective in what their job in front of them is?
    Ms. Farrell. Yes, I believe they do. I mean, some positions 
are established, as you know, by statute. But the statute does 
not say how DOD has to organize the accounting community. DOD 
has looked--a few years ago, there was a 2006 IDA [Institute 
for Defense Analyses] study that raised some questions about 
DPMO not being accepted, and perhaps there should be steps 
taken. And we know that there was some examination but not an 
indepth examination following that as to whether or not the 
DPMO should stay with the Under Secretary for Policy or be 
moved to the Under Secretary for Personnel and Readiness.
    Mrs. Noem. Do you believe that there are some actions that 
could be taken by Congress that could have some impact on 
centralizing that chain of command as well?
    Ms. Farrell. I think what you are doing today by providing 
oversight and focusing on the issue is desperately needed. I 
think timeframes are needed for DOD to move ahead in order to 
reach the 2015 goal. I think the issue that Dr. Cole brought up 
about priorities is a--one of the findings in our report that 
although DOD has developed criteria to categorize those that 
are feasible for recovery from Vietnam, they have not done so 
for the other 73,000 from these other conflicts. So there is 
much that has to be done in order to move forward to 2015.
    Mrs. Noem. Are you aware of any consequences that have been 
laid out if those timeframes are not met with the levels of 200 
findings per year?
    Ms. Farrell. Well, the findings from our report are to help 
DOD address the issue of how you are going to reach that goal 
of 200. Right now, I think there is enough evidence that shows 
there is a total lack of confidence by those in the accounting 
community that the status quo has the capacity and the 
capability to get there or that steps will be taken with the 
current status quo. And, again, action needs to be taken with 
time frames instead of waiting until 2015 and focusing on this. 
Three years have passed, and now is the time to send in some 
interim steps in order to get there.
    Mrs. Noem. Thank you. I appreciate you both being here.
    Mr. Wilson. And thank you, Mrs. Noem.
    We now proceed to Congressman Colleen Hanabusa of Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chair. And thank you for 
letting me participate in this hearing.
    Like Ms. Tsongas, I have a personal interest. I have a 
husband whose cousin, a West Point grad, is still MIA in the 
Korean War. And we have been watching JPAC as a result of that.
    So first, I think one of the critical issues,and Ms. 
Farrell, I will begin with you,has been that we are not in a 
contained situation. It is not like just Bosnia and looking for 
remains or Argentina, and geographically defined. I think the 
GAO report makes it very clear that one of the issues we have 
is that for PACOM's jurisdiction, and for World War II, we are 
looking at numbers of about 80,000 people that are out there, 
however they may be classified.
    Dr. Cole says, you know, we should focus. I understand what 
he is saying, but the result is, there is a lot. And there is 
also the inability to access in certain areas. Because my 
understanding is one of the problems we have that, for example, 
other countries in Asia may not have, is they may have better 
relationships into the areas where they are trying to procure, 
using Dr. Cole's statement.
    I think that is also something that GAO report concluded, 
as well. Am I correct?
    Ms. Farrell. If you are talking about there needs to be 
agreements or some type of mechanisms in place other than what 
PACOM has taken steps with EUCOM [U.S. European Command] or 
their area responsibility, you are absolutely correct.
    Ms. Hanabusa. And even within the PACOM jurisdiction, to 
get to certain areas to procure where there would have been, 
obviously, remains historically defined, you still have to have 
relationships with those areas and the ability to send in 
archaeologists or historians or anyone that we need to start 
the first step with this procurement. That is also understood, 
right?
    Ms. Farrell. Correct.
    Ms. Hanabusa. Now, your focus of your report is that there 
needs to be--the community working together. But you do not 
make a recommendation as to how they would work together.
    So who would make that decision--not GAO. But who would 
make that decision as to how this community will finally focus 
and get together?
    Ms. Farrell. Well, I think currently, it is up to the 
Secretary of Defense and the Deputy Secretary. We do know that 
after our report was issued, the Under Secretary for Policy did 
brief Secretary Hagel regarding the findings and, specifically, 
the recommendation on examining options for the organizational 
structure. And we know that taskings were sent out to DPMO to 
look at details regarding implementation cost, if any, that 
would be associated with these various options and report back.
    We do not know the status of that. And we do not have any 
documentation that shows exactly what they are looking at. But 
this is an issue, because it does involve so many chains of 
command, would have to be, at least I would think, up at the 
Deputy Secretary level.
    Ms. Hanabusa. Thank you.
    Dr. Cole, you come to JPAC as a fellow originally. Is that 
correct?
    Dr. Cole. That is correct. I still am.
    Ms. Hanabusa. You still are a fellow. And how long are you 
going to be at JPAC?
    Dr. Cole. Depends on what happens today, I think.
    [Laughter.]
    But the ORISE fellowship program provides for a 5-year 
maximum.
    Ms. Hanabusa. I see.
    Dr. Cole. And I am into 3\1/2\ years.
    Ms. Hanabusa. Three-and-a-half years.
    Okay, Dr. Cole, who exactly, either were the person who 
brought you, or you directly report to as the fellow?
    Dr. Cole. I report to lab management. No one brought me to 
JPAC. I was a management consultant and working the 
telecommunications business in Africa for 12 years. Before 
that, I was with the RAND Corporation. And when I was with 
RAND, I did a lot of work with the CIL-HI [U.S. Army Central 
Identification Laboratory-Hawaii], the Central Identification--
--
    Ms. Hanabusa. I am running out of time. I am sorry to put 
you off.
    Dr. Cole. Yes. So that is how I came back to that.
    Ms. Hanabusa. So that would have been the----
    Dr. Cole. CIL-HI.
    Ms. Hanabusa. Okay. Now, your report, so I understand it, 
is you are not critical of the lab functions. You believe the 
lab function is really the state of the art. You are critical 
of the procurement aspect of it. Is that also correct?
    Dr. Cole. No, I am not critical of anything. I reported the 
findings.
    Ms. Hanabusa. So you feel that the way JPAC is 
functioning--I thought you said they were inefficient. But 
maybe the word is inefficient is in the procurement portion of 
it.
    Dr. Cole. That is correct, ma'am.
    Ms. Hanabusa. So the--everything else--in other words, if 
they were to get more remains to work on, then you feel that 
everything else would fall into place, the four steps. And you 
would have the identification----
    Dr. Cole. Reasonably well, yes.
    Ms. Hanabusa. So you don't take issue with the 
identification report, which is your end product. You are just 
saying that there is not enough done in terms of the 
procurement aspect of it.
    Dr. Cole. That is correct. The identification step--for 
example, there--that is confirmed by external consultants. And 
then there is a DOD procedure called the AFIRB, the Armed 
Forces Identification Review Board. If there is a problem with 
that identification, there is a process to review it. So there 
is a lot of internal controls. Also, there is accreditation in 
the lab that looks after a lot of those procedures.
    Ms. Hanabusa. Thank you.
    Mr. Chair, my time is up. Thank you.
    Mr. Wilson. And, Ms. Hanabusa, thank you very much.
    And we now proceed to Congressman Rich Nugent of Florida.
    Mr. Nugent. Thank you, Mr. Chairman, for letting me sit in 
on this very important hearing. And I want to thank both of you 
for being here. I do not sit regularly on this subcommittee. 
But I do have great interest--you know, I have three sons that 
currently serve in the United States Army, and have had a 
brother in Vietnam and myself serving.
    So I am concerned when I hear from the GAO, obviously, that 
you have two organizations that seem to have competing 
interests. When we have a single common goal, is to recover the 
remains of our missing servicemen. And you hit on a couple of 
areas, in particular, in regards to chain of command. And so, I 
guess, I am trying to figure out, A, this all falls under DOD, 
correct?
    Ms. Farrell. Correct, the accounting community in DOD. 
There are other stake holders, such as the State Department. 
But we are talking about the community within DOD.
    Mr. Nugent. So, really, the Secretary of Defense has the 
ability to--or does he have the ability to consolidate those 
two under one chain of command for the purpose of, at least, 
accountability to take the turf war out of it? Does he have 
that ability?
    Ms. Farrell. Yes, he does. And that is part of what we 
presented in terms of various options of how the Secretary 
could reorganize the accounting community to have a more 
centralized chain of command. You still would probably have 
some key players outside of that chain. Because this is quite a 
process. I mean, it starts with DPMO. And in terms of--they are 
the ones that maintain the list that has the 83,000 on it.
    Mr. Nugent. Right.
    Ms. Farrell. And it ends with DPMO. And they are the ones 
that decide, ``Okay, this person is accounted for.'' And they 
come off. But there are so many players between. I mean, JPAC 
is one player. We have mentioned the Armed Forces DNA lab, the 
military services with their casualty offices, as well. So you 
would never be able to get everything under one chain.
    Mr. Nugent. I understand.
    Ms. Farrell. But the major players, we feel that it could 
be much more streamlined and under a more centralized chain of 
command.
    Mr. Nugent. I appreciate that.
    Dr. Cole, I hate the term, ``procurement.'' I understand 
why it is what it is, obviously. I just--I don't care for the 
term. But the recovery of remains, and I agree with you that 
you really need to have a focus as to where you are going to 
look. Because, you know, you talked about ships that have been 
sunk. Obviously, you know where the remains are located within 
the body of that ship, but it gets more difficult obviously 
when you are looking at single remains or a remains of an 
aircraft that is down.
    Ms. Hanabusa touched on the aspect of some areas we can't 
get into. North Korea is a difficult one in regards to dealing 
with them.
    So I would think that by focusing, let's say, in Vietnam, 
it would be--for JPAC or DPMO to target an area that we know we 
have a number of remains that are more recent than Korea and 
more recoverable than North Korea, that we would target and 
look to recover as many remains. Because we do know, from DPMO, 
that those that we believe are there in Vietnam.
    Why wouldn't they take that as a goal to meet that 200 but 
to target a particular area and say, ``Okay, we have done as 
much in that area as we can unless something happens''? Why 
wouldn't we do that?
    Dr. Cole. I agree with you about the prioritization. The 
way that it is being approached at the Central Identification 
Lab, I know a little bit about this because since I did this 
report, what I have been working on is something called the 
Solvability and Resolvability Project.
    The identification is based on biological evidence. So what 
we are doing is a review of all of the biological evidence from 
the missing persons and the unknowns to see if we can build a 
common database of the two.
    The recovery locations, that is a matter of what I 
described earlier. That is the Command-Authorized Research 
Program. It says start here. That is, as you will see from my 
statement, that is happening now in Papua New Guinea. It is a 
zone-by-zone recovery effort.
    But that is exactly the kind of methodological approach 
that has been missing and really needs to be implemented.
    Mr. Nugent. I appreciate your comments. And Mr. Chairman, 
my time has expired and I yield back. Thank you.
    Mr. Wilson. Thank you very much, Congressman Nugent. And 
thank you for your family's past and current service.
    We will be concluding with Congresswoman Jackie Speier of 
California.
    Ms. Speier. Mr. Chairman, thank you for allowing me to sit 
in on this hearing as well. I too am very concerned about this 
issue and appreciate the chair and ranking member taking this 
issue on.
    I am really very saddened by the reports, by the 
conclusions and by our gross inability to do something that 
seems so straightforward. And it is like we are the gang that 
can't shoot straight, so to speak.
    It sounds like this is a gross turf battle that has been 
going on for a very long period of time, that we have studies 
dating back to 2006 that make recommendations that seem pretty 
logical and should be embraced and we move forward.
    I mean, if we can go to war and succeed and yet we can't 
recover the remains when there is a systematic way of doing so, 
how can we explain it to the American people? How can we 
explain it to the families? To, as Congresswoman Tsongas said, 
to those that served with them?
    Let me start with the numbers--83,000. Dr. Cole, you 
suggested that there is a prioritization here. Of that 83,000, 
are we talking about some that are lost at sea that are 
unrecoverable, and if so, should we reduce that number to 
something that is more realistic?
    Dr. Cole. The short answer is yes. It should--the issue is 
not to take people off a list, saying we are not going to do 
research. It is to prioritize how we are going to allocate 
resources.
    So for example, from World War II, there are approximately 
78,000 who were given the casualty status 6, which is non-
recoverable. Of those, approximately 55,000 are associated with 
at-sea incidents. So that would leave 23,000 someplace else.
    So the at-sea incidents are the ones that I would say 
should be looked at first to determine if we want to pursue 
those. And then if the decision is, say, half of them or 
whatever, then focus on the ones that are associated with 
losses on land. And then, to work that way.
    In Korea, actually it is a very productive place to work. 
The recoveries that were done in the 1990s, you will see from 
my statement, produced over 100 identifications from the 
recoveries there. So getting back into North Korea could 
actually be very productive.
    But that list, as well, if memory serves me right from my 
RAND report, there are approximately 350 at-sea losses in 
Korea.
    Ms. Speier. Okay, so one of the very first things we should 
do is really kind of look at that number and target those areas 
where we could be most efficient and effective at recovery?
    Dr. Cole. If I could be--politely disagree with you, 
please. What should happen first is the creation of a coherent 
list because there isn't one right now.
    And so, for example, in 2009, Congress changed the 
accounting methods. There is only one right now. And that is to 
recover the remains and if they are not identifiable by visual 
inspection, they have to be identified by a practitioner of an 
appropriate forensic science.
    That is only one authorized accounting method. Now, you are 
not going to recover a lot of these remains that were lost at 
sea. But yet the mission now, as stated, is they can't be taken 
off the list until their remains are recovered. So at the time, 
they were unrecoverable, the NDAA [National Defense 
Authorization Act] 2010 changed that to non-recovered. It is a 
great distinction.
    So I think there has to be a review of who is on the list 
now, who are we looking for, and to reconcile some of the cases 
that we know will never be resolved. That is the first step, in 
my view.
    Ms. Speier. And you also recommended that we need more 
scientists involved in this process and less historians.
    Dr. Cole. Not more scientists, more scientific approach to 
the matter. Because at the end of the day, the identification 
report by law is produced by forensic evidence, not by 
circumstantial information. And this is a consequence of NDAA 
2010 that has been in force since October 2009.
    Ms. Speier. Dr. Cole, I would like to get a question to Ms. 
Farrell. My time is almost up.
    Ms. Farrell, it appears that you did a survey and that 
overwhelmingly it was the view of those who participated that a 
more centralized chain of command is desperately needed. Is 
that where the crux of this really comes in?
    Ms. Farrell. That is the crux of it.
    We administered the survey to 17 organizations. We received 
a single response from each organization. We did not receive a 
response from the Defense Intelligence Agency that has a role 
in terms of providing intelligence-sharing to non-intelligence 
agencies, as well as the cost assessment and program evaluation 
group did not respond.
    But overwhelmingly, 12 of 14 thought that another 
organization would be more effective. We also saw disconnects 
between the top leadership in terms of PACOM and the Under 
Secretary for Policy's office believing that the current 
structure allows ample opportunity for senior leadership 
involvement, which shows a disconnect with the other 
organizations that were noting the exact opposite, in terms of 
no confidence that the current organizational structure could 
increase its capability and capacity to reach the 200.
    Ms. Speier. Thank you. My time is expired.
    Mr. Wilson. Thank you very much, Ms. Speier.
    And I would like to thank both witnesses today. I 
appreciate actually both of you were very candid. Dr. Cole, 
thank you for your emphasis with Ms. Speier about a coherent 
list. That just must be done and, goodness, thank you, Ms. 
Farrell, in regard to structure.
    We will be having a follow-up hearing with DOD personnel, 
and I truly look forward to them addressing the issue and 
maybe--hopefully, actually letting us know that there has been 
a structural advance and reform.
    Again, thank everyone, the subcommittee, for being here. I 
want to thank the professional staff. They have just been so 
effective on this extraordinary issue, which has been so 
clearly identified as of concern to families, but also for 
service members, the people they have served with, but also the 
reassurance that we indeed leave no one behind.
    And that is what I saw, the commitment that I saw, and 
determination, when I visited the hillside, with Congresswoman 
Bordallo, in Vietnam.
    We are now adjourned.
    [Whereupon, at 9:10 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             August 1, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 1, 2013

=======================================================================

      
                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

          Department of Defense's Challenges in Accounting for

                  Missing Persons from Past Conflicts

                             August 1, 2013

    The hearing will come to order. Everyone is welcome to the 
Subcommittee on Military Personnel on the topic of ``The 
Department of Defense's Challenges in Accounting for Missing 
Persons from Past Conflicts.'' Today the Subcommittee will 
continue its oversight on the important issue of POW/MIA 
recovery. Last August, Congresswoman Bordallo and I had the 
opportunity to visit the Joint Personnel Accounting Command's 
(JPAC) headquarters as well as a field recovery team on the 
side of a mountain in Vietnam. I was extremely impressed with 
the professionalism and work ethic of our service men and women 
as they worked in extreme heat and dangerous conditions to 
recover the remains of missing persons from an airplane crash 
site. There are many dedicated military people involved with 
this effort. The Joint U.S.-Vietnamese team was inspiring for 
its determination of recovery of remains. They share the desire 
for the fullest possible accounting with the many family 
members of those who are still missing. We, as a nation, owe 
the proper emphasis, resources, and priority of effort to 
account for our missing persons from past conflicts and to 
bring closure to their family members.
    That is why this subcommittee, then chaired by Rep. Susan 
Davis, in the National Defense Authorization Act for Fiscal 
Year 2010 required the Secretary of Defense to increase 
significantly the Department's capability and capacity to 
account for missing persons, with the objective that the POW/
MIA accounting community could identify at least 200 missing 
persons annually beginning in fiscal year 2015.
    In May 2012, after 3 years of little apparent progress by 
the Department of Defense toward achieving the 2010 mandate, 
this committee directed a Government Accountability Office 
review. There have been approximately nine studies over the 
past decade on ways to improve the accounting community's 
effort, to include a recent internal review of JPAC's 
procedures conducted by Dr. Paul Cole who is employed as a 
fellow at JPAC.
    Our goal today is to better understand the ability of the 
POW/MIA accounting community to meet the requirements of the 
National Defense Authorization Act for Fiscal Year 2010, and to 
help the Department build the capability and capacity to 
identify 200 missing persons per year by Fiscal Year 2015.
    I would like to welcome our distinguished witnesses:
        <bullet> LMs. Brenda S. Farrell, Director, Defense 
        Capabilities and Management, U.S. Government 
        Accountability Office; and
        <bullet> LDr. Paul M. Cole, Ph.D., Oak Ridge Institute 
        for Science and Education Fellow with the Joint 
        Personnel Accounting Command, Central Identification 
        Laboratory, U.S. Pacific Command.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

          Department of Defense's Challenges in Accounting for

                  Missing Persons from Past Conflicts

                             August 1, 2013

    Mr. Chairman, I would also like to welcome Dr. Cole and Ms. 
Farrell. Thank you all for being here with us.
    I understand this hearing is the first of several that the 
Subcommittee is planning on holding on the effectiveness and 
efficiency of the POW/MIA Accounting Community. Mr. Chairman, I 
hope that the next hearing we hold will include the appropriate 
representatives from the Department of Defense.
    Ultimately, it is the Secretary of Defense's responsibility 
for ensuring that the Department meets the legal requirement to 
achieve at least 200 identifications a year beginning in 2015. 
Therefore, it is only appropriate that we have the 
representatives from the Department of Defense before the 
Subcommittee to understand what actions, if any, the Department 
is undertaking to truly address the concerns that have been 
raised in the Cole report and the recent GAO report.
    The culture of service instills within each service member 
that no one should be left behind on the field of battle. We 
have a moral responsibility to those who are missing and remain 
unaccounted for to be returned home to their families and loved 
ones. As the GAO report makes clear, weak leadership, 
fragmented organizational structure, and the lack of clearly 
articulated roles and responsibilities have hampered the 
effectiveness of this community for years. Given the current 
budget situation, we can no longer afford to let these concerns 
slide. It is time we focus our attention on how to make the 
POW/MIA Accounting Community more effective and efficient to be 
able to meet the goal of identifying at least 200 sets of 
remains a year by 2015.
    I look forward to hearing from our witnesses and having an 
open and productive dialogue on the issues and challenges that 
our two witnesses have identified within the POW/MIA Accounting 
Community. Thank you again for being here today. 

[GRAPHIC] [TIFF OMITTED] T2467.012

[GRAPHIC] [TIFF OMITTED] T2467.013

[GRAPHIC] [TIFF OMITTED] T2467.014

[GRAPHIC] [TIFF OMITTED] T2467.015

[GRAPHIC] [TIFF OMITTED] T2467.016

[GRAPHIC] [TIFF OMITTED] T2467.017

[GRAPHIC] [TIFF OMITTED] T2467.018

[GRAPHIC] [TIFF OMITTED] T2467.019

[GRAPHIC] [TIFF OMITTED] T2467.020

[GRAPHIC] [TIFF OMITTED] T2467.021

[GRAPHIC] [TIFF OMITTED] T2467.022

[GRAPHIC] [TIFF OMITTED] T2467.023

[GRAPHIC] [TIFF OMITTED] T2467.024

[GRAPHIC] [TIFF OMITTED] T2467.025

[GRAPHIC] [TIFF OMITTED] T2467.026

[GRAPHIC] [TIFF OMITTED] T2467.027

[GRAPHIC] [TIFF OMITTED] T2467.028

[GRAPHIC] [TIFF OMITTED] T2467.029

[GRAPHIC] [TIFF OMITTED] T2467.001

[GRAPHIC] [TIFF OMITTED] T2467.002

[GRAPHIC] [TIFF OMITTED] T2467.003

[GRAPHIC] [TIFF OMITTED] T2467.004

[GRAPHIC] [TIFF OMITTED] T2467.005

[GRAPHIC] [TIFF OMITTED] T2467.006

[GRAPHIC] [TIFF OMITTED] T2467.007

[GRAPHIC] [TIFF OMITTED] T2467.008

[GRAPHIC] [TIFF OMITTED] T2467.009

[GRAPHIC] [TIFF OMITTED] T2467.010

[GRAPHIC] [TIFF OMITTED] T2467.011

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             August 1, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2467.031
    

------------------------------------------------------------------------
                        FY    FY   FY   FY   FY   FY   FY   FY   FY   FY
                        04    05   06   07   08   09   10   11   12   13
------------------------------------------------------------------------
Disinterment           2     7    3    3    1    11   2    6    18   25
------------------------------------------------------------------------
Unilateral             19    28   24   25   26   21   24   9    25   21
------------------------------------------------------------------------
Joint                  47    41   32   27   29   24   30   22   26   15
------------------------------------------------------------------------

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
